Audit Report




OIG-14-020

Management Letter for the Audit of the Department of the
Treasury’s Fiscal Years 2013 and 2012 Financial Statements

January 22, 2014




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             January 22, 2014


            MEMORANDUM FOR NANI A.COLORETTI
                           ASSISTANT SECRETARY FOR MANAGEMENT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audit

            SUBJECT:              Management Letter for the Audit of the Department of the
                                  Treasury’s Fiscal Years 2013 and 2012 Financial Statements

            I am pleased to transmit the attached management letter in connection with the
            audit of the Department of the Treasury’s (Department) Fiscal Years 2013 and
            2012 financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP (KPMG), an independent certified public accounting firm,
            performed an audit of the Department’s FY 2013 and 2012 financial statements.
            The contract required that the audit be performed in accordance with generally
            accepted government auditing standards and Office of Management and Budget
            Bulletin No. 14-02, Audit Requirements for Federal Financial Statements.

            As part of its audit, KPMG issued, and is responsible for, the accompanying
            management letter that discusses certain matters involving internal control over
            financial reporting that were identified during the audit, but were not required to be
            included in the auditors’ report.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Ade Bankole, Manager, Financial Audit at
            (202) 927-5329.

            Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




January 15, 2014


Inspector General
U.S. Department of the Treasury:


In planning and performing our audit of the consolidated financial statements of the U.S.
Department of the Treasury (Department), as of and for the year ended September 30, 2013, in
accordance with auditing standards generally accepted in the United States of America, the
standards applicable to financial audits contained in Government Auditing Standards issued by
the Comptroller General of the United States, and Office of Management and Budget Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, we considered the
Department’s internal control over financial reporting (internal control) as a basis for designing
audit procedures that are appropriate in the circumstances for the purpose of expressing our
opinion on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Department’s internal control. Accordingly, we do not express an opinion on
the effectiveness of the Department’s internal control.
We did not audit the financial statements of the Internal Revenue Service and the Office of
Financial Stability, component entities of the Department. Those statements were audited by
another auditor.
During our audit we noted certain matters involving internal control and other operational
matters that are presented below for your consideration. In addition, we and the other auditor
noted additional matters that were reported separately to component management. These
comments and recommendations, all of which have been discussed with the appropriate
members of management, are intended to improve internal control or result in other operating
efficiencies and are summarized as follows:
1. Callable Capital Commitments to Multilateral Development Banks
The Multilateral Development Banks (MDBs) consist of the World Bank Group (International
Bank for Reconstruction and Development (IBRD), International Finance Corporation, and
Multilateral Investment Guarantee Agency) and five regional development banks (the African,
Asian, European, Inter-American, and North American institutions). The Department, on behalf
of the United States, has subscribed to capital for certain MDBs, some of which is paid-in and
some of which is callable.
Callable capital represents a financial commitment made by shareholders, but there is no actual
transfer of funds. Callable capital subscriptions are subject to call, under limited circumstances,
and only when required to meet the obligations of the respective MDBs created by borrowing or
guaranteeing loans. Funds for callable commitment increases are provided through appropriation
legislation.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Office of Inspector General
U.S. Department of the Treasury
Page 2 of 6




The callable capital commitment is disclosed in the notes to the financial statements. The Credit
Accounting Branch (CAB) at the Bureau of the Fiscal Service (Fiscal Service) maintains the
callable capital commitment balance for each MDB. CAB updates callable capital commitments
quarterly based on annual and supplemental appropriation acts that provide the increases to the
limitations on callable capital.
CAB did not record callable capital commitment increases provided for in Public Law 113-6
Continuing Resolution, which was enacted on March 26, 2013, resulting in an $8.3 billion
understatement in callable capital commitments. As a result of our observations, CAB
appropriately increased the callable capital commitments to reflect the additional $8.3 billion of
callable capital commitments in accordance with the accounting standards.
Recommendations
We recommend the Department implement the following actions in accordance with its current
policies and procedures:
    a. Review appropriation legislation to identify changes to callable capital commitments
       each quarter.
    b. Reconcile callable capital commitments from the subsidiary ledger to the schedule
       supporting the note disclosure each quarter to ensure all activity is properly disclosed.
    c. Confirm callable capital commitments with MDBs each year to ensure the callable
       capital commitment activity is properly disclosed.
Management Response
The Department agrees with the finding and recommendations. Accordingly, the Department
will ensure that Fiscal Service accurately records newly subscribed callable capital consistent
with the program limitations provided in appropriations legislation. Further, Fiscal Service
will reconcile, on a quarterly basis, callable capital commitments from the subsidiary ledger to
the schedule supporting the note disclosure. Finally, the Fiscal Service will confirm, on an
annual basis, the callable capital commitments with the MDBs to ensure proper recording of the
commitments.


2. Custodial Revenue Accrual
The Fiscal Service did not use the appropriate general ledger posting model to record a $3.1
billion custodial revenue accrual transaction. Fiscal Service used the following posting model:
        Debit 1340 – Interest Receivable, Not Otherwise Classified
                Credit 2980 – Custodial Liability
Office of Inspector General
U.S. Department of the Treasury
Page 3 of 6




In accordance with the United States Standard General Ledger (USSGL), the Fiscal Service
should have used the following posting model:
        Debit 1340 – Interest Receivable, Not Otherwise Classified
        Debit 5991 – Accrued Collections for Others - Statement of Custodial Activity
                Credit 2980 – Custodial Liability
                Credit 5900 – Other Revenue
As a result of our observations, Fiscal Service recorded the following adjusting entry for $3.1
billion, to correct the year-end accrual adjustment:
        Debit 5991 – Accrued Collections for Others - Statement of Custodial Activity
                Credit 5900 – Other Revenue
Recommendations
We recommend that the Department work with the Fiscal Service to complete the following:
    a. Review its accounting entries to ensure that accounting entries comply with the USSGL.
    b. Reconcile the balances from the Fiscal Service Schedule of Treasury-Managed Accounts
       to the balances reported on the Department’s financial statements.
Management Response
The Department agrees with the finding and recommendations. Accordingly, the Department
will ensure that Fiscal Service reviews its accounting entries for compliance with the USSGL.
Further, the Department will require that Fiscal Service reconcile the applicable lines of the
stand-alone Schedule of Treasury-Managed Accounts to the applicable balances reported on the
Department’s CFO Vision (CFOV)-generated financial statements during the 3rd and 4th
quarters.


3. Financial Statement Crosswalk
The Department requires components that issue stand-alone financial statements to reconcile
balances from their stand-alone financial statements to the components’ CFOV financial
statements through the use of the “Stand-Alone to CFOV Crosswalk” template (crosswalks).
The Department indicated that it reviewed the completed crosswalks; however, the Department
did not document its review, nor did it adequately review the crosswalks to identify errors. The
Bureau of Engraving and Printing did not properly complete the crosswalk and provided several
incorrect versions of the crosswalk before providing a proper crosswalk. Incorrect completion
and inadequate review of crosswalks limits the Department’s ability to ensure the component
stand-alone financial statements reconcile to the CFOV financial statements.
Office of Inspector General
U.S. Department of the Treasury
Page 4 of 6




Recommendation
We recommend that the Department work with Bureau of Engraving and Printing to ensure that
it understands how to prepare the crosswalk, agree the balances from the components’ stand-
alone financial statements to the Bureau BS Line Description’ and ‘Bureau's FS Balance’ on the
crosswalks, work with the components to understand and resolve any differences, verify the
appropriateness of the ‘Bureau Reclassification Balance’ amounts on the crosswalks, agree the
‘Calculated CFO Vision Statement’ amounts to the CFOV financial statements, verify the
mathematical accuracy of the crosswalk, and document evidence of completion and review of
such procedures.
Management Response
The Department agrees with the findings and recommendations. Accordingly, the Department
will ensure that bureaus properly complete the stand-alone financial statement crosswalk
reconciliation by educating bureaus as to the appropriate use of their stand-alone financial
statement detail line descriptions/amounts within the crosswalk template. The Department will
require that the bureau stand-alone financial statement crosswalk incorporate any approved post-
closing accounting adjustments reported on the Department’s financial statements. Furthermore,
the Department will adequately review bureaus’ crosswalk reconciliations by: (i) ensuring
agreement between stand-alone report data appearing on the crosswalk to the bureaus’ stand-
alone financial report, and (ii) agreeing CFOV data appearing on the crosswalk to CFOV
financial reports. The Department will ensure that reconciliation differences are adequately
explained or resolved. Finally, the Department will prepare a cover letter that indicates that the
crosswalks have been adequately reviewed by the Department.


4. Oversight of 3rd Party Service Provider for the Housing Finance Agency (HFA)
   Initiative New Issue Bond Program (NIBP)
Under the Housing and Economic Recovery Act of 2008 (HERA) the Department, together with
the Federal Housing Finance Agency, Fannie Mae, and Freddie Mac, announced in October
2009, an initiative to provide support to state and local housing finance agencies (HFAs). The
initiative was designed to support low mortgage rates and expand resources for low and middle
income borrowers to purchase or rent homes, making them more affordable over the long term.
In accordance with HERA, the Department purchased $15 billion of Fannie Mae and Freddie
Mac (Government-sponsored Enterprises (GSEs)) securities and the GSEs used the proceeds to
disburse the funds to state and local HFAs. The state and local HFAs used the funds to purchase
mortgages in their locality and securitized such mortgages. The resulting HFA mortgage revenue
bonds became the underlying collateral of the GSE securities.
The Department entered into a service provider agreement with JPMorgan Chase Bank N.A.
(JPMorgan) to provide the Department custody services for the GSE securities. JPMorgan’s
Office of Inspector General
U.S. Department of the Treasury
Page 5 of 6




responsibilities include custody over the GSE securities, principal and interest collection, and
maintaining records of the underlying collateral of the GSE securities (the HFA mortgage
revenue bonds). The Department records financial transactions using reports from JPMorgan.
JPMorgan engages a service auditor to perform periodic examinations of JPMorgan’s internal
controls in accordance with Statements on Standards for Attestation Engagements No. 16,
Reporting on Controls at Service Organizations (SSAE 16). The periodic examinations result in
reports on the Suitability of the Design and Operating Effectiveness of Controls (SOC 1 report)
that provides the Department with an assessment of design, implementation, and operating
effectiveness of JPMorgan’s internal controls over the HFA mortgage revenue bonds for the
entire fiscal year. Historically, the timing of the SOC 1 report covering the period April 1
through September 30 has not been available by November 15th of such year. As a result, the
Department may not have a SOC 1 report for the last six months of fiscal year to provide the
Department the assessment it needs to assess its overall control environment.
Recommendations
We recommend the Department perform one of the following:
    a. Coordinate with JPMorgan to obtain a SOC 1 report or Agreed-Upon Procedures report
       addressed to Department management and the Department’s auditors over the controls
       that are relevant to the Department’s control environment for the period October 1, 2013
       through at least June 30, 2014. The Department should ensure that it receives such
       report on or before October 31, 2014 to enable the Department to evaluate and react to
       such report before it issues its agency financial report on November 15, 2014.
    b. Periodically (at least annually) confirm with local HFAs the following information and
       reconcile the confirmed information to JPMorgan reports:
            1) Principal and interest paid to the Department
            2) Mortgage revenue bond portfolio details

Management Response
The Department agrees with the finding and recommendations. The Department has begun
the process of obtaining an Agreed-Upon Procedures report from JPMorgan.


                                           ********


Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that
Office of Inspector General
U.S. Department of the Treasury
Page 6 of 6




may exist. We aim, however, to use our knowledge of the Department’s organization gained
during our work to make comments and suggestions that we hope will be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The Department’s responses were not subjected to the auditing procedures applied in the audit of
the financial statements and, accordingly, we express no opinion on the responses.
The purpose of this letter is solely to describe comments and recommendations intended to
improve internal control or result in other operating efficiencies. Accordingly, this letter is not
suitable for any other purpose.
Very truly yours,
